A+

Select Credit Tier:
P.O. BOX 1366 3700 Skyline Drive
Nederland, Texas 77627
(800) 825-8829 (409) 962-8793
www.5pointcu.org

STANDARD, PLATINUM, PLATINUM WITH
REWARDS, AND SIGNATURE VISA CREDIT CARD
AGREEMENT AND DISCLOSURE

CREDIT CARD AGREEMENT AND DISCLOSURE

Interest Rates and Interest Charges

ANNUAL PERCENTAGE RATE (APR)
for Purchases and Balance Transfers
ANNUAL PERCENTAGE RATE (APR)
for Cash Advances
How to Avoid Paying Interest
Minimum Interest Charge
For Credit Card Tips from
the Consumer Financial Protection Bureau
Fees
Annual Fee
Transaction Fees
Foreign Transactions
Penalty Fees
Late Payment
Returned Payment

Platinum with Rewards

1.90 %

Standard Visa

Platinum Visa

Signature Visa

_______________ . Introductory APR for a period of six (6) billing cycles.
When the discounted period expires, the APR on existing balances will increase to the new nondiscount rate on the first day of the billing cycle.
After that, your APR will be
the Prime Rate.

7.25 %. This APR will vary with the market based on

18.00 %

Your due date is at least 25 days after the close of each billing cycle. We will not charge you any
interest on purchases or balance transfers if you pay your entire balance by the due date each
month. We will begin charging interest on cash advances on the transaction date.
If you are charged interest, the charge will be no less than $ 2.50
. The minimum interest
charge will be charged on any dollar amount.
To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau at:
http://www.consumerfinance.gov/learnmore
None
1.00 % of each transaction in U.S. Dollars completed outside the U.S.
1.00 % of each transaction in U.S. Dollars completed in foreign currency.

Up to $29.00
Up to $29.00

How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new purchases)”. See your account agreement for more details.
Loss of Introductory APR: We may end your introductory APR if you make a late payment. With the loss of your Introductory APR, your APR for Standard and Platinum Visa will be a variable
7.25 - _______%,
18.00 Platinum with Rewards Visa will be a variable rate of _______%-_______%
8.75
18.00 and Signature Visa will be a variable rate of _______%-_______%.
10.75
13.50
rate of _______%
Other Disclosures Late
$29.00 or the amount of the required minimum payment, whichever is less, if you are ten (10) or more days late in making a payment.
Payment Fee Returned
$29.00 or the amount of the required minimum payment, whichever is less.
Payment Fee Document
$ 5.00
Copy Fee
$55.00 Input Today, FedEx Today. Request received before 10:30 a.m. on a business day
Expedited Fee
Collection Costs. You agree to pay all costs of collecting the amount you owe under this Agreement, including court costs and reasonable attorney’s fees.
Periodic Rates.
7.25
The Purchase APR is ____________________%,
which is a daily periodic rate of ____________________%.
0.019863
0.005205
1.90
The Introductory Purchase APR is ____________________%,
which is a daily periodic rate of ____________________%.
18.00
0.049315
The Cash Advance APR is ____________________%,
which has a daily periodic rate of ____________________%.
The Balance APR is ____________________%,
which is a daily periodic rate of ____________________%.
7.25
0.019863
The Introductory Balance Transfer APR is ____________________%,
which is a daily periodic rate of ____________________%.
1.90
0.005205
Variable Rate:
The ANNUAL PERCENTAGE RATE is subject to change on the first day of the billing cycle monthly to reflect any change in the Index and will be determined by the Prime Rate on the last
business day of each month of each year as published in The Wall Street Journal “Money Rates” table to which we add a margin. The ANNUAL PERCENTAGE RATE will never be greater than
18%. Any increase in the ANNUAL PERCENTAGE RATE will take the form of additional payments shown as Total Minimum Payments on the statement. If the Index is no longer available, the
Credit Union will choose a new index which is based upon comparable information.
Margin
4.00 above the Index.
Purchases and Balance Transfers will be charged a ____________________%

Copyright 2011 ConmarSystems, Peachtree City, GA 30269 – EFORM 21861-3 Rev. 2/20

Page 1 of 3

P.O. BOX 1366 3700 Skyline
Drive
Nederland, Texas 77627
(800) 825-8829 (409) 962-8793
www.5pointcu.org

STANDARD, PLATINUM, PLATINUM WITH REWARDS,
AND SIGNATURE VISA CREDIT CARD
AGREEMENT AND DISCLOSURE

CREDIT CARD AGREEMENT AND DISCLOSURE

This Agreement establishes the terms and conditions of your credit card agreement with the Credit Union. In
this agreement, the words “you” and “your” mean any person who signs this agreement or who uses any
card or other access device that may be issued in connection with this Agreement "Card" means the
Standard and/or Platinum credit card and any duplicates and renewals the Credit Union issues. "Account"
means your Standard and/or Platinum credit card account with the Credit Union. "Credit Union," "we," "us,"
and "our" mean the Credit Union. You must be a member of the Credit Union to apply for a credit card.
USING THE ACCOUNT: If you are approved for an account, the Credit Union will establish a line of credit
for you. By using the card for the first time, or authorizing another person to use your account, you agree to
and accept all of the terms and conditions in this agreement. You agree that your credit limit is the maximum
amount (purchases, cash advances, balance transfers, plus “other charges”) which you will have outstanding
on your account at any time. Unless disclosed otherwise, the Credit Union will not allow advances over the
credit limit. If the Credit Union has a program whereby it allows payment of advances that exceed your credit
limit, the Credit Union will provide you with notice, either orally, in writing, or electronically (notwithstanding
the requirements of the paragraph entitled “Statements and Notices”) explaining your right to opt in to the
Credit Union’s program whereby it will honor advance requests over the credit limit. In the event you opt in to
such a program, you agree to the terms of such a program. You may request an increase in your credit limit
only by a method acceptable to the Credit Union. The Credit Union may increase or decrease your credit
limit, refuse to make an advance and/or terminate your account at any time for any reason not prohibited by
law. If you are permitted to obtain cash advances on your account, we may, from time to time, issue
convenience checks to you that may be drawn on your account. Convenience checks may not be used to
make a payment on your account balance. If you use a convenience check, it will be posted to your account
as a cash advance. We reserve the right to refuse to pay a convenience check drawn on your account for
any reason and such refusal shall not constitute wrongful dishonor.
You may request that we stop the payment of a convenience check drawn on your account. You agree to
pay any fee imposed to stop a payment on a convenience check issued on your account. You may make a
stop payment request orally, if permitted, or in writing. Your request must be made with sufficient time in
advance of the presentment of the check for payment to give us a reasonable opportunity to act on your
request. In addition, your request must accurately describe the check including the exact account number,
the payee, any check number that may be applicable, and the exact amount of the check. If permitted, you
may make a stop payment request orally but such a request will expire after 14 days unless you confirm your
request in writing within that time. Written stop payment orders are effective only for six (6) months and may
be renewed for additional six month periods by requesting in writing that the stop payment order be renewed.
We are not required to notify you when a stop payment order expires. If we re-credit your account after
paying a check or draft over a valid and timely stop payment order, you agree to sign a statement describing
the dispute with the payee, to assign to us all of your rights against the payee or other holders of the check or
draft and to assist us in any legal action. You agree to indemnify and hold us harmless from all costs and
expenses, including attorney’s fees, damages, or claims, related to our honoring your stop payment request
or in failing to stop payment of an item as a result of incorrect information provided to us or the giving of
inadequate time to act upon a stop payment request.
RESPONSIBILITY: You promise to pay any and all charges incurred by you or by any person whom you
authorize to use the Credit Card issued to you, and any fees or charges incurred in the recovery of a credit
card, retrieval of transaction data, or collection of this account in accordance with the terms and conditions
issued by MasterCard International, Inc. in accordance with the policies established by the Credit Union.
Your obligation to pay the amount owed on your account continues until paid in full even though an
agreement, divorce decree or other court judgment to which the Credit Union is not a party may direct
someone else to pay the account balance.
JOINT ACCOUNT: If more than one person applies for the card each is individually responsible for all
amounts owed on the account and is jointly and severally responsible for all amounts owed. This means the
Credit Union can enforce the Agreement against any of you individually or all of you together. Each may
obtain credit advances without the knowledge of the other and both are obligated to repay all advances made
to the account. You agree to notify the Credit Union of any address change.
USING THE CARD: You may use the card issued to you to make purchases from anyone who accepts
Credit Cards. You may also obtain cash advances from the Credit Union, from other financial institutions
participating in the program and from automated teller machines (ATM's) that provide access to the system.
Your Personal Identification Number (PIN) is needed to obtain cash advance from an ATM (not all ATMs
accept Cards). You agree not to use the card for any illegal transactions such as advances for gambling or
wagering where these practices are in violation of the law. Even if you use your card for an illegal
transaction, you will be responsible for all amounts and charges incurred in connection with the transaction.
PERSONAL IDENTIFICATION NUMBER (PIN): We will furnish you with a Personal Identification Number (PIN).
You agree to keep the PIN secret. You also agree you won't write the PIN on the Card or anything you keep with
the card. Your use of the PIN and Card in making a purchase or obtaining a cash advance constitutes your
agreement to be responsible for all amounts and charges incurred in connection with such transactions.
FINANCE CHARGES. For purchase, cash advance, and balance transfer transactions on your Account, the
balances subject to a finance charge are identified on your monthly statement as “Average Daily Balance”
(including new purchases, new cash advances and new balance transfers). The “Average Daily Balance” is
determined as follows. Each day we take the balance at the beginning of the day, add any new purchases,
cash advances, balance transfers, insurance premiums, and debit adjustments or other charges, and
subtract any payments, credits, unpaid finance charges, late charges, over-the-credit limit fees, and cash
advance fees that are processed that day. This gives us the “Daily Balance.” To get the “Average Daily
Balance” for the billing cycle, we add up all the Daily Balances for each calendar day of the billing cycle, and
divide the total by the number of days in the billing cycle. Purchase transactions posted to your Account
during the billing cycle period are included in the total only if the “New Balance” on your previously assessed
bill was not paid in full by the end of the grace period, as explained below.
A finance charge will be imposed on Credit Purchases only if you elect not to pay the entire New Balance
shown on your monthly statement for the previous billing cycle within 25 days from the date of that
statement. If you elect not to pay the entire New Balance shown on your previous monthly statement within
that 25 day period, a Finance Charge will be imposed on the unpaid average daily balance of such Credit
Purchases from the date of posting to your Account during the current billing cycle, and will continue to
accrue until the date of the billing cycle preceding the date on which the entire New Balance is paid in full or
until the date of payment if more than 25 days from the closing date.
VARIABLE RATE. Your Account is subject to a Variable Rate which is based on the highest Prime Rate as
published in the Money Rates Section of the Wall Street Journal in effect on the last day of each calendar
quarter (“Index”) plus our Margin. The Index plus the Margin equals the Interest Rate. Changes in the Index
will cause changes in the Interest Rate on the first day of the next billing cycle following the change (“Change
Date”). Increases or decreases in the Interest Rate will result in like increases or decreases in the Finance
Copyright 2011 ConmarSystems, Peachtree City, GA 30269 – EFORM 21861-3 Rev. 2/20

Charge and will affect the amount of your regularly scheduled payments that you will be required to make. An
increase in the Index will result in an increase in your regularly scheduled payment amount.

There is no limit on the amount by which the annual percentage rate can change on any Change Date other
than the maximum Annual Percentage Rate. The maximum ANNUAL PERCENTAGE RATE that can apply
is 18.00%.
At the time of this agreement, your Account is subject to the following terms:
PURCHASES AND BALANCE TRANSFERS: Standard and Platinum Visa- For 6 billing cycles your Account
is subject to an Introductory Daily Periodic Rate of 0.005205% (corresponding to an Introductory ANNUAL
PERCENTAGE RATE of 1.90%. After the expiration of the Introductory Rate, your Interest Rate for
Purchases will be calculated according to the Variable Rate provisions described herein, using a Margin of
4.00
_____________%.
If your Account was not subject to an Introductory Rate, Purchase Transactions would
4.00
3.25
have been subject to the following terms: Index _____________%;
Margin _____________%;
Daily Periodic
7.25
0.019863 ANNUAL PERCENTAGE RATE _____________%.
Rate _____________%;
Platinum with Rewards Visa- For 6 billing cycles your Account is subject to an Introductory Daily Periodic
Rate of 0.005205% (corresponding to an Introductory ANNUAL PERCENTAGE RATE of 1.90%. After the
expiration of the Introductory Rate, your Interest Rate for Purchases will be calculated according to the
Variable Rate provisions described herein, using a Margin of _____________%. If your Account was not
subject to an Introductory Rate, Purchase Transactions would have been subject to the following terms:
Index _____________%; Margin _____________%; Daily Periodic Rate _____________%; ANNUAL
PERCENTAGE RATE _____________%.
Signature Visa- For 6 billing cycles your Account is subject to an Introductory Daily Periodic Rate of
0.005205% (corresponding to an Introductory ANNUAL PERCENTAGE RATE of 1.90%. After the expiration
of the Introductory Rate, your Interest Rate for Purchases will be calculated according to the Variable Rate
provisions described herein, using a Margin of _____________%. If your Account was not subject to an
Introductory Rate, Purchase Transactions would have been subject to the following terms: Index
_____________%; Margin _____________%; Daily Periodic Rate _____________%; ANNUAL
PERCENTAGE RATE _____________%.
Balance Transfers will be charged at a retail rate but do not qulify for points on Platinum with Rewards or
Signature Cards only.
CASH ADVANCES: The daily periodic rate for Cash Advances is 1.5%, corresponding to the ANNUAL
PERCENTAGE RATE OF 18.00%.
OTHER CHARGES: The following other charges (fees) will be added to your Account, as applicable:
a) Returned Payment Fee: You will be charged up to $29.00 for any check payment returned for any
reason;
b) Document Copy Fee: You will be charged $5.00 for each copy of a sales draft or statement that you
request (except when the request is made in connection with a billing error made by the credit union);
c) Expedited Fee: You will be charged $55.00 for input today, FedEX tomorrow if you request is received
before 10:30 a.m. on a business day.
d) Card Replacement Fee: $10.00.
e) Account Research Fee: $10.00 per hour.
LATE CHARGE: If your payment is 10 or more days late you will be charged $29.00 or the amount of the
required minimum payment, whichever is less.
MONTHLY PAYMENTS: Each payment you make on the account will restore your credit limit by the amount
of the payment that is applied to the outstanding principal of the purchases, cash advance and balance
transfer features of your account. At any time, if your total new balance exceeds your credit limit, you must
immediately pay the amount that exceeds your credit limit.
A PAYMENT IS REQUIRED EACH MONTH: You must pay at least the minimum payment shown on your
statement by the date specified on your monthly statement. You can repay any outstanding balance prior to
maturity in whole or in part at your option without penalty. Your monthly payment must be made directly to the
address shown on your statement. If available, you may have your minimum payment automatically deducted
from your checking or savings account.
The minimum periodic payment required for your Standard, Platinum, Platinum with Rewards and Signature
29.00
1.00 of your total new balance or $_____________,
Visa Account will be _____________%
whichever is greater,
unless your outstanding balance is less than $_____________,
in which case your minimum payment will be
29.00
your outstanding balance. Any portion of minimum payments shown on prior statements which remain
unpaid, any amounts by which you exceed your credit limit, and any other applicable charges will also be
added to your required minimum monthly payment.
Subject to applicable law, payments will be applied in the following order or in any manner the credit union
chooses. First to any previously billed and unpaid Finance Charges on purchases, cash advances and balance
transfers, then to any billed fees, then to the principal balance of purchases in the order they were posted to your
account and then to the principal balance of cash advances. However, in every case, in the event you make a
payment in excess of the required minimum periodic payment, the Credit Union will allocate the excess amount
first to the balance with the highest annual percentage rate and any remaining portion to the other balances in
descending order based on applicable annual percentage rate. If two or more purchases were posted on the
same day, your payment will be applied to the lowest amount first. You understand that any payment that delays
the repayment of Your unpaid balance will increase Your Finance Charge and any payment that accelerates the
reduction of Your unpaid balance will decrease Your Finance Charges.
CREDIT BALANCES: If there is a credit balance due you, you may request in writing a full refund of this
credit balance at our address shown in this Agreement.
SECURITY: You grant us a security interest under the Uniform Commercial Code and under any common law
rights the Credit Union may have in any goods you purchase. If you give the Credit Union a specific pledge of
shares by signing a separate pledge of shares, your pledged shares will secure your account. You may not
withdraw amounts that have been specifically pledged to secure your account until the Credit Union agrees to
release all or part of the pledged amount.

Page 2 of 3

CONSENSUAL SECURITY INTEREST. To secure repayment of amounts you owe on your Account,
you give the Credit Union a consensual security interest in all other shares you have in any
individual or joint accounts you have with the Credit Union, now and in the future (other than those
accounts that would have an adverse tax consequence if pledged as collateral). These other shares
may be withdrawn unless you are in default under this agreement. You authorize the Credit Union to
apply the balance in your individual or joint share accounts to pay any amounts due on your
Account if you should default.
CROSS-COLLATERAL: If you have other loans with us, or take out other loans with us in the future,
collateral securing those loans (other than household goods or any dwelling) will also secure your obligations
under this Agreement if those other agreements indicate that they may secure other obligations you may
have with us.
DEFAULT: You will be in default: (1) if you fail to make any minimum payment or other required payment
by the date that it is due, (2) if you break any promise you make under this Agreement, (3) if you die, file
for bankruptcy or become insolvent, that is, unable to pay your obligations when they become due, (4) if
any attachment or garnishment proceedings are initiated against you or your property, (5) if you default on
any other indebtedness to the Credit Union, (6) if you make any false or misleading statement in any credit
application or credit update, (7) if something happens that the Credit Union believes may substantially
reduce your ability to repay what you owe.
When you are in default, the Credit Union has the right to demand immediate payment of your full
account balance without notice. If immediate payment is demanded, you will continue to pay Finance
Charges, at the periodic rate charged before default, until what you owe has been paid, and any
shares that were given as security will be applied towards what you owe.
If collections efforts are required by the Credit Union, you agree to pay all costs and expenses incurred in the
collection of any sum due, and in addition, if the holder hereof, after default, shall place this Agreement in the
hands of an attorney or collection agency, for collection, to pay reasonable attorneys’ fees, interest and fees
due on this Agreement at the time of the employment of such attorney or collection agency.
CREDIT INFORMATION: You understand that the Credit Union will review your accounts periodically, and you
hereby give your permission to and authorize the Credit Union to investigate and reassess your
creditworthiness. You authorize the Credit Union to obtain information concerning your credit history from all
available sources now and in the future. You authorize the Credit Union to disclose information regarding your
account to credit bureaus and creditors who inquire about your credit standing.
LIABILITY FOR UNAUTHORIZED USE/LOSS OR THEFT: If you notice the loss or theft of your credit card or a
possible unauthorized use of your card, you should write to us immediately at P.O. Box 1366, 3700 Skyline
Drive, Nederland, Texas 77627, or call us at 409-962-8793 or 800-825-8829 twenty-four (24) hours a day,
seven (7) days a week. You will not be liable for any unauthorized use that occurs after you notify us. You may,
however, be liable for unauthorized use that occurs before your notice to us. In any case, your liability will not
exceed $50.00.
MERCHANT DISPUTES: The Credit Union is not responsible for the refusal of any merchant or financial
institution to honor the card. Please refer to the section titled “Your Billing Rights” for more information
RETURNS AND ADJUSTMENTS: Merchants and others who honor your card may give credit for returns or
adjustments, and they will do so by sending the Credit Union a credit slip which will be posted to your
account. If your credits and payments exceed what you owe the Credit Union, the amount will be applied
against future purchases and cash advances. If the credit balance amount is $1.00 or more, it will be
refunded upon your written request or automatically after six (6) months.
CHANGING OR TERMINATING YOUR ACCOUNT: You agree that the Credit Union may change the terms of
this Agreement from time to time after giving you any advance notice required by law at your last known address.
To the extent the law permits, and indicated in the notice to you, the change will apply to your existing account
balance as well as to future transactions. Your use of the card after receiving notice or a change will also indicate
your agreement to the change.
You may request an increase in your credit limit either by written application or by phone. The Credit Union has
the right to reduce or terminate your credit limit at any time. You understand and acknowledge that such action
shall not affect your obligation to pay any outstanding balance PLUS any finance and other charges you owe
under this Agreement. Accounts that have been inactive for one (1) year may be subject to termination at the
renewal date. The card(s) you receive remain the property of the Credit Union and you must recover and
surrender to the Credit Union ALL cards upon request or upon termination of this Agreement whether by you or
the Credit Union.
FOREIGN TRANSACTIONS: Purchases and cash advances made in foreign currencies will be debited from
your account in U.S. dollars. The currency conversion rate used to determine the transaction amount in US
dollars is either a rate selected by Visa from the range of rates available in wholesale currency markets for
the applicable central processing date, which rate may vary from the rate Visa itself receives, or the
government-mandated rate in effect for the applicable central processing date, plus 1 percent of the
transaction amount, which may be billed separately on your account or included in the transaction amount.
This 1% adjustment is made for all international transactions regardless of whether there is a currency
conversion associated with the transaction. The conversion rate in effect on the processing date may differ
from the rate in effect on the transaction date or posting date.
EFFECT OF AGREEMENT/WAIVER: This Agreement is the contract which applies to all transactions on
your account even though the sales, cash advances, credit or other slips you sign or receive may contain
different terms. The Credit Union can delay enforcing any of its rights any number of times without losing
them. Each provision of this agreement must be considered as part of the total agreement and cannot in any
way be severed from it. However, you also agree that should any part of this agreement be found invalid, it
will in no way affect the remainder of the agreement.
STATEMENT AND NOTICES: You will receive a statement each month showing transactions on your account.
You are responsible for your minimum monthly payment even in the event your statement is late or returned to
the Credit Union. Statements and notices will be mailed to you at the most recent address you have given the
Credit Union. Notice to any one of you will be considered notice to all.
GOVERNING LAW: Except to the extent that Federal Law is applicable, the laws of the state in which this
document is written shall govern the validity, construction and enforcement of this Agreement and all
matters arising out of the issuance and use of the Card.

Copyright 2011 ConmarSystems, Peachtree City, GA 30269 – EFORM 21861-3 Rev. 2/20

Your Billing Rights: Keep This Document For Future Use

This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
FivePoint Credit Union
P O Box 1366 3700 Skyline Drive
Nederland, Texas 77627
You may also contact us on the Web: www.5pointcu.org
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong
and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on
the amount you think is wrong.
You must notify us of any potential errors in writing [or electronically]. You may call us, but if you do we are
not required to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell
you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain why we believe the
bill was correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest
on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your
balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees
related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with
applicable interest and fees. We will send you a statement of the amount you owe and the date
payment is due. We may then report you as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us
that you still refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you
are questioning your bill.
We must tell you the name of anyone to whom we reported you as delinquent, and we must let those
organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question
even if your bill is correct.
Your Rights if You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have
tried in good faith to correct the problem with the merchant, you may have the right not to pay the remaining
amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing
address, and the purchase price must have been more than $50. (Note: Neither of these are necessary if
your purchase was based on an advertisement we mailed to you, or if we own the company that sold you the
goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an
ATM or with a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing [or
electronically] at:
FivePoint Credit Union
P O Box 1366 3700 Skyline Drive
Nederland, Texas 77627
www.5pointcu.org
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our
investigation, we will tell you our decision. At that point, if we think you owe an amount and you do not pay,
we may report you as delinquent.

Page 3 of 3

